"-




(t
'''''C''.


                   DEPARTMENT OF HEALTH &. HUMAN SERVICES                                  Office of Inspector General


                                                                                           Washington , D. C.   20201



                                                             MAR 1 6 2006


            TO:	               Abby Block , Director

                               Center for Beneficiary Choices

                               Centers for Medicare & Medicaid Services


            FROM:              Stuar Wright 


                               Deputy Inspector General

                                 for Evaluation and Inspections


            SUBJECT:	 Early Implementation of MM: Status Report of the State Health Insurance
                              Assistace Programs (OEI- 05- 05- 00190)



            This memorandum contain information regarding the Centers for Medicare & Medicaid
            Services ' (CMS) ability to assess the State Health Insurance Assistace Program (SHIP) as
            SHIPs begin to assist beneficiaries interested in enrollng in the new Medicare drg benefit. Ths
            early implementation review provides a description of the curent status ofCMS' s oversight
            efforts regarding this program and contains implications for the futue , as well as some
            suggestions for fuer improvements. This work also lays a baseline for futue Office of
            Inspector General work in the area.

            Background
            SHIP provides a "health insurance advisory service to assist Medicare eligible individuals with
            the receipt of services under the Medicare and Medicaid programs and other health insurance
            programs. " 1 SHIs curently operate in all 50 States , the District of Columbia, the Virgin
            Islands , Puerto Rico , and Guam. SHIPs are generally composed of volunteer networks in local
            communities , with over 1 300 local SHI offces around the countr supported in large par by
            over 10   000 volunteers. The SHIP counselors have approximately 1. 8   milion beneficiar
            encounters a year through individualized couneling.    Additional beneficiares are served though
            public and media events.

            The Medicare Drug, Improvement , and Modernation Act of 2003 (MMA) made comprehensive
            prescription drug coverage under Medicare Part D available to all 42 milion Medicare
            beneficiaries. Beneficiaries generally have the option of enrollng either in a stad-alone
            prescription drg plan (PDP) and receiving all other Medicare benefits through fee- for-service or
            enrollng in a Medicare Advantage plan (MA plan) and receiving all Medicare benefits (including
            drg coverage) through managed care. To receive this benefit, Medicare beneficiaries select a
            prescription drg benefit package that best meets their needs based on differences in


                      I Public Law 101- 508.
Page 2 – Abby Block

premiums, copayments, formularies, and pharmacy networks.2 Beneficiaries must select a plan
by May 15, 2006, or face penalties in the form of higher premiums.

Prior to the passage of the MMA, SHIP was a relatively small program with limited outlays of
Federal funding. SHIPs provided information and counseling regarding Medicare and other
insurance services, but did not assist beneficiaries in enrolling for benefits. In response to the
MMA, SHIPs have taken on a prominent role in conducting outreach and counseling
beneficiaries on the new drug benefit. In addition to providing information regarding the new
benefit, CMS has instructed SHIPs to help Medicare beneficiaries enroll in the drug benefit.3 A
CMS press release characterized SHIPs as the “key foot soldiers in providing one-on-one
assistance for Medicare beneficiaries to help them get the best health care.”4 SHIPs are of
particular importance because they are able to counsel the beneficiary, sometimes in face-to-face
situations, about drug plans that will best meet their needs. They are able to provide
individualized assistance and have access to local information.

To support the increased expectations to counsel and enroll beneficiaries in the new drug benefit,
CMS increased SHIP funding. In the past, CMS annually allocated $10 million in grants to
SHIPs based on a formula stipulated by regulation.5 This allocation was increased to
approximately $21 million in fiscal year (FY) 2004 and approximately $32 million in FY 2005.6

Given the importance of SHIPs to the successful implementation of the new drug benefit, it is
imperative that CMS has the tools available to assess the SHIP performance. It is only by
monitoring and assessing their performance that CMS will be able to ensure that they are
effectively assisting beneficiaries and using the enhanced funding in an effective and efficient
manner.

Methodology
To ascertain the current ability of CMS to measure the SHIPs’ performance during the early
stages of MMA implementation, we reviewed CMS’s mechanisms to collect and assess
performance data and the performance data SHIPs submitted.

We reviewed the FY 2005 SHIP grant announcement, the notice of grant award, and data
collection forms to determine what performance expectations exist, the associated performance
measures, and the data sources used to measure whether expectations are being met. In addition,
       2
         Beneficiaries dually eligible for Medicaid and Medicare and Medicare beneficiaries enrolled in managed 

       care plans will have plans automatically assigned to them. However, they have the option of selecting a 

       different plan that better suits their needs.

       3
         FY 2005 grant announcement, p. 9.

       4
         CMS press release, April 2005. 

       5
         42 CFR § 403.504.

       6
         The overall appropriation to SHIPs for FY 2005 was $31.7 million, of which approximately $1.4 million

       was applied to the SHIP Resource Center, SHIPtalk.org, SHIP performance assessment, and the SHIP

       National Conference, and approximately $1 million was used for SHIP Competitive Leadership Grants. 

       This leaves the first $10 million in annual grants and the approximately $19.3 million under the new 

       formula. 

Page 3 – Abby Block

we conducted structured interviews with the CMS staff and their contractors to understand the
performance expectations, measures, and data collected, as well as to determine how they
analyze and validate these data.

We also analyzed the timeliness, completeness, and reliability of the performance data SHIPs
submit. To do this, we collected data submissions for the SHIP activities from April 2003
through September 2004 (three reporting periods), the latest complete data available at the time
of our request. We also compared the SHIP data submissions to the validated, final performance
report, called the National Performance Report (NPR), to determine if flawed data were being
included in the final NPR that CMS uses to assess SHIP performance.

Current Status of CMS’s Ability to Assess SHIP Performance
CMS’s Performance Assessment Mechanisms

Performance Assessment Approach. CMS’s authority to assess the SHIP performance is
outlined in 42 CFR § 403.502,7 which states “CMS awards grants to States subject to the
availability of funds and, if applicable, subject to the satisfactory progress in the State’s project
during the preceding grant period.” The performance expectations for determining whether
satisfactory progress is made are specified in the grant announcement as are the terms and
conditions included in the notice of grant award sent to each State. Further, SHIPs have the
following reporting requirements contained in statute:8 (1) SHIPs must demonstrate to the
Secretary via CMS the ability to provide counseling and assistance,9 and (2) States receiving the
SHIP grants must submit at least one annual report to CMS and any additional reports as CMS
may prescribe in the notice of grant award.10

Based on these authorities, in the FY 2005 grant announcement, CMS established performance
expectations for the first time. Prior to the establishment of these expectations, there was no
formal process to assess the SHIPs’ performance. The four performance expectations outlined in
the grant announcement are:

   (1) Provide counseling to a greater number of individual beneficiaries unable to access other
       channels of information or needing and preferring locally based individual counseling
       services.
   (2) Increase targeted outreach in order to provide access to counseling to low-income, dual-
       eligible, and hard-to-reach populations.
   (3) Increase and enhance the counselor workforce and equip it to be proficient.
   (4) Increase local and State participation in the CMS education and communication
       activities, thus enhancing communication between CMS and SHIPs to assure that the
       SHIP counselors are equipped to respond to a rapidly changing counseling environment
       7
         Complete SHIP requirements mandated by law and required in regulation can be found in Public Law 

       101-508 §§ 4359 through 4360 and 42 CFR parts 403.500 through 403.512. 

       8
         Omnibus Budget Reconciliation Act of 1990. 

       9
         Required by section 4360 of Public Law 101-508. 

       10
          Required by 42 CFR § 403.510. 

Page 4 – Abby Block

       and to provide CMS with information about the support and resources that SHIPs need to
       provide accurate and reliable counseling services. 11

For each of the four performance expectations, CMS lists between 4 to 10 performance
measures, totaling 26, that it “may consider”12 in analyzing the SHIP progress. Eight of the
twenty-six performance measures require SHIPs to provide descriptive information. The
remaining 18 measures are linked to performance data. See the attachment for a complete list of
the SHIP performance measures.

Of the 18 performance measures linked to performance data, only 5 incorporate specific
performance targets. For example, to meet the performance expectation of enhancing the
counselor workforce, one performance measure stipulates that all the SHIP counselors were to
have been trained on the new benefits created by the MMA by July 31, 2005. CMS has not
similarly delineated specific performance targets in the remaining 13 performance measures. For
example, other measures that may be used to assess whether SHIPs meet the expectation of
enhancing the counselor workforce include the number of training hours and the number of
counseling hours and sessions per counselor. There are no specific numerical targets for either
of these measures. CMS has not set a target amount of training hours for SHIPs to strive
towards. Nor has CMS provided the target amount of counseling hours or sessions they expect
from each counselor. Instead, it is up to SHIPs to infer, from the wording of the performance
expectation, that the goal is to demonstrate an increase in these activities.

In addition to these established performance measures, CMS is currently working collaboratively
with the SHIP Performance Assessment Workgroup and the SHIP Directors to focus more on
performance outcomes and benchmarking. At the SHIP National Directors Conference in May
2005, the CMS staff indicated that the ultimate goal is to design and implement a comprehensive
SHIP performance assessment system that provides an overall assessment for each SHIP,
including a process to identify performance improvement needs and best practices. To do this,
CMS has stated plans to produce a range of performance measurement reports for itself and
SHIPs. For example, the CMS staff advised us of and presented information on their plans to
group similar SHIPs and rank and compare their performance to established benchmarks.

Further, CMS reports that the CMS staff are conducting regular telephone surveys of the SHIP
Directors to assess their ability to recruit, train, and manage volunteers; to identify resources to
provide outreach, education, and enrollment assistance; and to respond to the increased need for
the SHIP services. As part of this effort, CMS is sharing best practice information among SHIPs
to help their directors learn from their colleagues.

Collection of Performance Data. In 2002, CMS developed three standardized forms for the
collection of performance data: (1) Client Contact, (2) Public and Media (PAM), and
(3) Resource Report. Data from these forms are compiled into the NPR and used to monitor
SHIP performance. Prior to this, the SHIP data submissions were not standardized, data

       11
            FY 2005 grant announcement, pp. 8-11. 

       12
            FY 2005 grant announcement, p. 9.

Page 5 – Abby Block

collection definitions differed among the SHIPs, and data were only collected in the aggregate.
CMS began receiving standardized data from these three new forms in 2004.

The Client Contact form collects data about individual counselor-to-client encounters. The PAM
form collects information about the SHIP outreach activities. The Client Contact and the PAM
data are submitted quarterly and can be submitted by the encounter (specific information
regarding an individual contact with the beneficiary or individual presentations) or in the
aggregate (total number of encounters or presentations). The Resource Report form collects data
about the SHIP volunteers, staff, and training. These submissions are received in the aggregate
and are submitted semiannually. The data contained in these three reports can be submitted
through SHIPtalk.org, a Web site for SHIP NPR reporting. SHIPs can also submit data through
other means. SHIPs may use State-developed, proprietary systems for the collection and
submission of data, or they can use a Microsoft Access-based data entry tool to submit Client
Contact data.

In July 2005, the three data collection forms were revised. The increased focus on the SHIP
performance under the MMA necessitated changes to these forms to enable CMS to capture
more data relevant to the new drug benefit. Specifically, the forms now capture data on
educating, counseling, and enrolling beneficiaries in drug plans.

Additionally, CMS began requiring complete reporting by including data reporting as part of the
terms and conditions of the FY 2005 grant award and by instructing SHIPs to report data at the
encounter-level through SHIPtalk.org. In the grant award, CMS defined full reporting as timely
submission of each of the forms. However, CMS did not address the completeness of all data
fields or the accuracy of data submitted on the forms. CMS also required more frequent
reporting. CMS now requires SHIPs to submit Client Contact and PAM submissions quarterly
instead of semiannually and Resource Reports, previously submitted annually, to be submitted
semiannually.

SHIP Submissions of Performance Data

CMS reported that it has taken several steps to assist SHIPs in improving their reporting of data
used to assess their performance. CMS reports that it provided technical assistance to SHIP
directors and counselors, including training them on the use of the NPR forms, how to input data
into SHIPtalk.org, and uploading data from proprietary State systems. Further, CMS encouraged
full reporting in the FY 2005 grant award, as previously stated.

Our analysis of the SHIP data submissions indicates that SHIP reporting has increased over the
three reporting periods analyzed (April 2003 to September 2004). Specifically, SHIPs improved
from the first reporting period to the third on each of the three forms: Client Contact
submissions improved from 74 percent to 96 percent, and PAM submissions improved from
74 percent to 83 percent. However, some of these submissions were received after the deadline
and the totals were not included in the overall final NPR. Resource Report submissions
improved from 70 percent to 72 percent.
Page 6 – Abby Block

Even with the increased reporting, SHIPs did not submit all reports at the encounter level in the
reporting period ending September 2004. Two SHIPs did not submit Client Contact reports and
an additional seven reported Client Contacts only at the aggregate level. The seven aggregate
submissions accounted for 32 percent of all Client Contacts. Further, 9 of 54 SHIPs did not
submit PAM reports detailing their public and media activities for this same period. These nine
SHIPs accounted for almost 30 percent of Client Contacts nationwide during this reporting
period. Lastly, during this reporting period, 15 SHIPs did not submit Resource Reports detailing
the number of volunteer and paid counselors at each SHIP and the training they received. CMS
reports that achieving full reporting is challenging due to the fact that SHIPs rely on a primarily
volunteer staff who are motivated by providing services and less motivated to report data.
The SHIP performance data submitted to CMS are not comprehensively validated for accuracy.
Data that are submitted through SHIPtalk.org are subject to automatic computer edits to prevent
nonsense entries and ensure the completeness of key fields. However, data that are not submitted
through SHIPtalk.org do not receive this type of systematic data cleansing; CMS has exempted 3
States, accounting for 22 percent of all Client Contacts, from using SHIPtalk.org. CMS’s data
contractor conducts additional cursory reviews for completeness and accuracy of Client Contact
data submitted via SHIPtalk.org, but not on PAM or Resource Report data. Finally, neither CMS
nor its contractor validate any of the data onsite by reviewing source documents or assessing the
procedures used to input data.

Implications Regarding CMS’s Ability to Assess the SHIP Performance
Because CMS has yet to establish specific performance benchmarks or targets, it will be
difficult to hold SHIPs accountable for their use of increased funding through the MMA.

Given their additional funding and responsibilities in relation to the new drug benefit, it is
increasingly important that the SHIP performance be adequately monitored. Providing SHIPs
with known, specific performance targets will be essential to ensure that they are effectively able
to assist beneficiaries enrolling in the new drug benefit. Without specific performance targets, it
will be difficult for CMS to assess the extent to which SHIPs are meeting performance
expectations and to hold them accountable for making improvements commensurate with their
increased funding. It will also be difficult for SHIPs to plan their activities and the use of their
resources to achieve the established expectations.

For example, CMS requests that SHIPs report the total number of beneficiaries served by
individual counseling contacts in order to assess whether they are meeting the expectation to
provide counseling to a greater number of individual beneficiaries. It also requests that SHIPs
report the number of beneficiaries reached at public events in order to determine their success in
increasing targeted outreach to low-income, dual-eligible and hard-to-reach populations. In both
cases, the implied performance target for SHIPs is merely to “increase” their activities in these
areas. Thus, any increase, regardless of magnitude, over the previous year’s performance would
be considered successfully meeting the performance expectation.
Page 7 – Abby Block

CMS publicly announced a target of reaching as many as 5 million Medicare beneficiaries
through SHIPs in FY 2005.13 This translates into reaching approximately one in eight Medicare
beneficiaries. However, even in establishing this informal performance target, CMS did not
define which activities are included, or designate what percentage of the people to be reached
should be served through personalized counseling. Additionally, SHIPs have not been given
individual targets or the percentage increases in beneficiaries served needed to achieve this goal.

Incomplete and inaccurate data may hinder CMS in developing and implementing a
meaningful performance assessment system.

Complete, accurate, encounter-level SHIP data submissions are necessary to determine if SHIPs
are meeting the established performance expectations. Incomplete or inaccurate data in the final
NPR will result in an inaccurate assessment of the SHIP performance. For example, the final
data submissions we reviewed for the reporting period ending September 2004 incorporated data
that indicated one State had experienced a 6,269 percent increase in attendance at interactive
presentations between FY 2003 and FY 2004. Data reported at the aggregate level rather than
the encounter level will not provide the specificity needed to provide meaningful, performance
feedback to individual SHIP sites. Providing SHIPs with meaningful, accurate feedback on their
performance is essential to continuous quality improvement in SHIPs’ abilities to assist
beneficiaries applying for the new drug benefit.

CMS’s lack of complete and accurate data could also hinder its ability to establish the
benchmarks CMS staff have indicated they would like to construct. It will also hinder them from
establishing more specific performance targets.

Suggestions for Improving CMS’s Ability to Assess the SHIP Performance
CMS has made important strides in improving its ability to assess the SHIP performance and in
working with SHIPs to improve reporting into this system. Our review indicates, however, that
there are additional steps CMS should consider to further enhance its ability to accurately assess
the SHIP performance. We make the following suggestions to augment CMS’s already existing
plans to improve SHIP oversight.

CMS should continue to pursue benchmarking and consider using it to establish specific
performance targets.

To improve its ability to meaningfully assess the SHIP performance, CMS could further pursue
its stated intention to establish benchmarks. Once established, these benchmarks could be used
to create specific performance targets for SHIPs. If specific targets are too difficult to establish,
given data problems and the substantial flux the program is in due to implementation of the new
drug benefit, targets could be expressed as an acceptable range of improvement.


       13
          This target has been established through an official press release and public presentations by the CMS
       staff.
Page 8 – Abby Block

CMS could work with SHIPs to ensure complete and accurate data submission and could
validate all submitted data.

CMS could further clarify for SHIPs that full reporting means that all forms are submitted in a
timely fashion, all fields are completed, and the data are accurate. Further, CMS could more
systematically validate all performance data. CMS may want to consider incorporating spot
checks of source documentation or conducting targeted onsite visits at SHIPs that are having
problems meeting reporting requirements or not using SHIPtalk.org to validate data.

We hope you find this information useful to CMS in its ongoing efforts to improve the SHIP
performance. If you have any questions, please do not hesitate to call me, or one of your staff
may contact Tricia Davis, Director, Medicare and Medicaid Branch, at 410-786-3143, or through
e-mail (Tricia.Davis@oig.hhs.gov).

Attachment
Page 9 – Abby Block

Attachment: Complete List of SHIP Performance Measures in FY 05 SHIP Grant
Announcement
   Expectation                                              Measurement                                                         Target
                      Compliance with the NPR reporting standards                                                                100%
   Increase local
  and State SHIP State and local program registration on SHIPtalk.org                                                            100%
  participation in
  CMS education Attendance at trainings, conference calls, and the National Directors’ Conference                           Attendance at 3
and communication Inventory of the SHIP publications                                                                          Description
      activities
                   Orders of the CMS publications                                                                               Increase
                      The percentage of counselors participating in training and fully trained on the MMA by
                                                                                                                                 100%
                      July 31, 2005

                                                                                                                  Full Internet access to materials and
                      The availability of Internet access in all local counseling centers and the percentage of
                                                                                                                       tools, no target for training
                      volunteers who are trained on using Internet-based counseling and enrollment tools
                                                                                                                                volunteers

                      The number and type of counseling hours and sessions per counselor                                        Increase
                      The number of counselor hours per 1,000 beneficiaries in State                                            Increase
    Increase and
    enhance the     The use of quality assurance measures, including tools such as counselor recertification
                                                                                                                              Description
  counselor work exams
 force and equip it
                    The number of training hours provided to counselors                                                         Increase
  to be proficient
                    A description of counselor workforce and support systems (including the use of
                    volunteers and paid staff, staff and local program supervision and support systems, role                  Description
                    of local/regional coordinators)

                      A description of volunteer roles                                                                        Description

                      A description of targeted counselor recruitment efforts                                                 Description
                      The demographic makeup of counseling staff as compared with the demographic
                                                                                                                                Increase
                      makeup of the community served by the program
                      The time counselors spend counseling beneficiaries                                                        Increase

                      The total number of beneficiaries served by individual counseling contacts                                Increase

                   The percentage of Medicare beneficiaries in the State that are counseled by SHIPs                            Increase
Provide counseling
    to a greater   The percentage of one-on-one contacts as compared to other types of beneficiary
     number of                                                                                                                  Increase
                   contacts and services
     individual
   beneficiaries   Coverage of the SHIP services in the State by zip code                                                       Increase

                      Number of beneficiaries enrolled in coverage programs and the savings those
                                                                                                                                Increase
                      beneficiaries would realize through their enrollment

                      The budget and implementation strategy related to the amount of support for locally
                                                                                                                              Description
                      accessible, in-depth counseling services
                      Target audiences of public events                                                                       Description
 Increase targeted
 outreach in order    Number and reach of public events conducted by the SHIP program                                           Increase
 to provide access
  to counseling to    Demographics of beneficiaries served through counseling services, including an                   Increase efforts to be
    low-income,       emphasis on low-income and a representative client base reflective of the ethnicity/race    demographically representative of
 dual-eligible, and   and disability status of the beneficiaries in the State served                                 the Medicare population
   hard-to-reach
     populations      The SHIP program’s partnership development strategy and identification of the partners
                                                                                                                              Description
                      and targeted populations reached through partnerships

                                                      Source: Office of Inspector General analysis of the FY 2005 SHIP grant announcement, 2005.
